OFFICE OF INSPECTOR GENERAL
                   Audit Report
 Fiscal Year 2013 Audit of Information Security
        at the Railroad Retirement Board



      This abstract summarizes the results of the subject audit.
      The full report includes information protected from disclosure
      and has been designated for limited distribution pursuant to
      5 U.S.C. § 552




                      Report No. 14-03
                       March 04, 2014




 RAILROAD RETIREMENT BOARD
                                 REPORT ABSTRACT
                   Fiscal Year 2013 Audit of Information Security
                          at the Railroad Retirement Board
Background

The Office of Inspector General for the Railroad Retirement Board (RRB) conducted an
audit of information security at the RRB for fiscal year (FY) 2013, which is mandated by
the Federal Information Security Management Act of 2002 (FISMA).

Objectives

The objectives of our audit included testing the effectiveness of the information security
policies, procedures, and practices of a representative subset of the agency’s
information systems; assessing agency compliance with FISMA requirements and
related information security policies, procedures, standards and guidelines; and
preparing a report on selected elements of the agency’s information security program in
compliance with the Department of Homeland Security’s FY 2013 FISMA reporting
instructions.

Findings

Our audit determined that the RRB continues to make progress in implementing an
information security program that meets the requirements of FISMA; yet a fully effective
security program has not been achieved. The significant deficiencies in the internal
control structure over the review of the agency’s contractor deliverables associated with
the risk management framework, and the security configuration management program
remain unresolved. We also noted some lesser deficiencies in the RRB’s security
program.

Recommendations

In total, we made seven detailed recommendations to RRB management related to:

   •   Strengthening Configuration Management by developing baseline configuration
       settings and implementing automated capabilities to identify deviations from
       baseline configurations settings.
   •   Ensuring non-user accounts are reviewed periodically including updating the
       accounts as necessary to ensure account names and descriptions accurately
       reflect the purpose of the account.
   •   Identifying all key data fields for effective management in the agency-wide Plan
       of Action and Milestones, and strengthening controls to ensure all key fields are
       required data fields and consistently completed.



                                            1
   •   Improving the security training process by implementing controls to ensure all
       contractors complete security awareness training.
   •   Updating policies and procedures for role-based training for RRB employees and
       contractors.


Management’s Responses

Agency management concurs with all recommendations.




                                            2
